HHS/OIG, Audit -"Ineligible Medicare Payments To Skilled Nursing Facilities Under The Administrative Responsibility
of Anthem Health Plans of New Hampshire, Inc.,"(A-05-04-00058)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments To Skilled Nursing Facilities Under The Administrative Responsibility of Anthem Health
Plans of New Hampshire, Inc.," (A-05-04-00058)
July 15, 2004
Complete
Text of Report is available in PDF format (161 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare Skilled Nursing Facility (SNF) payments,
attributable to Anthem Health Plans of New Hampshire, Inc. (Anthem), contained in a database of payments made under the
administrative responsibility of nine Medicare Fiscal Intermediaries (FI’s).  Our review of the database estimated
that $206,495 of ineligible SNF payments were made under the administrative responsibility of Anthem during calendar years
1997 through 2001.  The overpayments occurred due to the absence of an automated cross-check, within the Centers for
Medicare and Medicaid Services Common Working File and the Fiscal Intermediary’s (FI) claims processing systems,
verifying that a three consecutive day inpatient hospital stay occurred prior to SNF admission.  Anthem will not initiate
recovery actions on the ineligible payments within our database due to a CMS memorandum which instructed all FIs not to
initiate any recovery actions.